U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Ramon Hueso v. J.A. Barnhart, Warden, No. 19-1365
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 8, 2020.
The government’s response is now due, after one extension, on August 12, 2020. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
September 11, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

19-1365
HUESO, RAMON
J.A. BARNHART, WARDEN

MATTHEW S. HELLMAN
JENNER & BLOCK LLP
1099 NEW YORK AVENUE, NW
SUITE 900
WASHINGTON , DC 20001-4412
202-639-6000
MHELLMAN@JENNER.COM
SARAH MARIE KONSKY
SIDLEY AUSTIN LLP
ONE SOUTH DEARBORN STREET
CHICAGO, IL 60603
773-834-3190
KONSKY@UCHICAGO.EDU

